Service List
Philipp
Counsel for Petitioners
Jonathan M. Freiman
Wiggin & Dana LLP
One Century Tower
265 Church Street
New Haven, CT 06510
Telephone: 203-498-4584
jfreiman@wiggin.com
Acting Solicitor General
Jeffery B. Wall
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-221
SupremeCtBriefs@USDOJ.gov
Counsel for the Respondents
Nicholas M. O'Donnell, Counsel of Record
Erika L. Todd
SULLIVAN & WORCESTER LLP
One Post Office Square
Boston, MA 02109
(617) 338-2814
nodonnell@sullivanlaw.com
Simon
Counsel for Petitioners
Konrad L. Cailteux
Gregory Silbert, Counsel of Record
WEIL, GOTSHAL & MANGES LLP
767 Fifth Avenue
New York, NY 10153
(212) 310-8000
gregory.silbert@weil.com
Counsel for Respondents
Sarah E. Harrington, Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Avenue, Suite 850
Bethesda, MD 20814
(301) 362-0636
sh@goldsteinrussell.com

